SIGAR                                           Special Inspector General for
                                                 Afghanistan Reconstruction




U.S. ANTI-CORRUPTION EFFORTS: A STRATEGIC
PLAN AND MECHANISMS TO TRACK PROGRESS
ARE NEEDED IN FIGHTING CORRUPTION IN
AFGHANISTAN



   This product was completed under SIGAR’s Office of Special Projects, the Special
  Inspector General’s response team created to examine emerging issues in prompt,
   actionable reports to federal agencies and the Congress. The work was conducted
 pursuant to the Special Inspector General’s authorities and responsibilities under the
            National Defense Authorization Act for FY 2008 (P.L. 110-181).




                                             SEPTEMBER 2013
                                                                                  SIGAR SP-13-9
September 11, 2013


The Honorable John F. Kerry
  U.S. Secretary of State

The Honorable James B. Cunningham
  U.S. Ambassador to Afghanistan


Reducing corruption and increasing accountability are important components of the U.S. reconstruction
strategy in Afghanistan. Since 2002, the United States has appropriated over $96 billion for reconstruction
assistance in Afghanistan and, as part of that assistance, has designated numerous programs or activities to
directly or indirectly help strengthen the ability of Afghan government institutions to combat corruption. In
2010, in line with a commitment to provide more assistance directly to the Afghan government, the United
States and other donors committed, in part, to providing technical assistance to develop the Afghan
government’s capacity to reduce corruption. 1 The ability of the Afghan government to deliver services to its
citizens without the illicit diversion of resources is crucial to the country’s development and the government’s
standing as a legitimate, sovereign authority. Further, as Afghanistan subsequently enters a transformation
phase during which it will need to rely on progressively smaller amounts of funding from international donors, it
must work to ensure that the revenue it generates is not susceptible to graft and corruption.
In August 2010, we reported that more than $50 billion in U.S. assistance had been provided for
reconstruction in Afghanistan without the benefit of a comprehensive anti-corruption strategy, and U.S. anti-
corruption efforts had provided relatively little assistance to some key Afghan institutions. 2 Since that time, an
additional $46 billion has been appropriated for reconstruction in Afghanistan. For the Afghan Ministries of
Interior and Defense alone, the United States has committed at least $1 billion in bilateral assistance for its
security forces and plans to provide more bilateral aid to the Afghanistan government in the future.
We initiated this review to follow up on the findings of our 2010 report, specifically on the Department of
State’s establishment of a comprehensive anti-corruption strategy and to evaluate the progress the United
States has made in meeting its anti-corruption goals in Afghanistan. Our objectives for this review were to
(1) identify the United States’ strategic goals and objectives for reducing corruption in Afghanistan and
(2) assess the overall progress that U.S. agencies have made against those goals and objectives.
To conduct this review, we reviewed relevant U.S., Afghan, and international strategies and plans, program
documents, and status reports, including the Tokyo Mutual Accountability Framework, 3 the U.S. Civil-Military
Strategic Framework for Afghanistan, 4 and U.S. Embassy Kabul anti-corruption working group documentation.



1 During a January 2010 multi-donor conference in London, the United States along with other members of the

international donor community committed to increase the percentage of reconstruction assistance delivered directly
through the Afghan government to 50 percent in the next two years. This support was conditioned on the Afghan
government’s progress in strengthening public financial management systems, reducing corruption, improving budget
execution, and developing a financing strategy and government capacity to meet the goal. Conference participants
confirmed their intention to provide technical assistance to develop the government’s capacity to achieve this goal. See
Communique of the International Conference on Afghanistan, London, Jan. 28, 2010.
2 SIGAR Audit-10-15, U.S. Reconstruction Efforts in Afghanistan Would Benefit from a Finalized Comprehensive U.S. Anti-

Corruption Strategy, August 5, 2010.
3   Tokyo Mutual Accountability Framework, July 8, 2012.
4   U.S. Civil-Military Strategic Framework for Afghanistan (Kabul: October 2012, Revision 1 and August 2013, Revision 2).




SIGAR SP-13-9 Anti-Corruption / Strategy and Planning                                                                Page 1
We also interviewed the Deputy Ambassador to Afghanistan and numerous officials at the U.S. Embassy Kabul
from the Departments of Justice; Homeland Security; and State, including officials in the Office of the
Coordinating Director for Rule of Law and Law Enforcement, the Office of the Coordinating Director for
Development and Economic Affairs, and Bureau of International Narcotics and Law Enforcement Affairs; and
the U.S. Agency for International Development (USAID). We conducted this review in Washington, D.C., and
Kabul, Afghanistan, from February to August 2013. This work was conducted under the authority of Public Law
No. 110-181, as amended and the Inspector General Act of 1978, as amended.


Summary of Findings
We found that the U.S. anti-corruption activities in Afghanistan are not guided by a comprehensive U.S. strategy
or related guidance that defines clear goals and objectives for U.S efforts to strengthen the Afghan
government’s capability to combat corruption and increase accountability. The Department of State (State)
never finalized the draft 2010 U.S. anti-corruption strategy for Afghanistan and, according to agency officials,
the draft strategy and its related implementation plan are no longer in effect. In the absence of a relevant and
specific anti-corruption strategy, agency officials informed us that two documents guide their current
anti-corruption efforts in Afghanistan: the Tokyo Mutual Accountability Framework and the U.S. Civil-Military
Strategic Framework for Afghanistan. However, we found that both documents lacked specific goals and
objectives with measurable outcomes for anti-corruption activities against which the U.S. government can
measure its progress. This evidence suggests that the U.S. government lacks a comprehensive anti-corruption
strategy that (1) clearly links specific program goals and objectives to the U.S. strategic goals and objectives for
combating corruption in Afghanistan, (2) aligns necessary interagency resources to achieve those strategic
goals and objectives, and (3) describes the performance measures that will be used to assess anti-corruption
activities and their outcomes against the strategic objectives.
As the U.S. military and civilian presence in Afghanistan is reduced, U.S. agencies plan to continue to
implement programs and activities to increase the Afghan government’s accountability and ability to combat
corruption. To oversee these programs and activities, senior leadership at the U.S. Embassy in Kabul made an
effort to coordinate the agencies’ various anti-corruption programs and related efforts by establishing three
anti-corruption working groups in 2012. These working groups coordinate agencies’ activities under the broad
goals of building Afghan government institutional capacity, improving financial regulations and public financial
management, and enhancing revenue generation. However, these groups do not measure the medium- or
long-term progress of their programs against comprehensive anti-corruption goals. As a result, State and
Embassy Kabul remain unable to assess the overall progress the U.S. government has made to improve the
Afghan government’s capacity to combat corruption.
We are making two recommendations to the Secretary of State to better define and direct the U.S.
government’s anti-corruption goals and desired outcomes in Afghanistan. In commenting on a draft of this
report, State agreed with the importance of establishing clear objectives and benchmarks in order to measure
outcomes. In addition, as a result of our findings, State is developing a targeted set of anti-corruption
objectives, benchmarks, and plans against which U.S. efforts and resources will be directed and assessed.


Background
Widespread corruption in Afghanistan is a significant problem and remains a threat to the success of
reconstruction and assistance programs. In 2012, Transparency International ranked Afghanistan in a tie with




SIGAR SP-13-9 Anti-Corruption / Strategy and Planning                                                        Page 2
Somalia and North Korea as the most corrupt country in the world. 5 A 2012 Asia Foundation survey found that
more than two-thirds of Afghans view corruption as a major problem in their provincial government (70
percent) and in Afghanistan as a whole (79 percent), the highest levels since 2006. Corruption in Afghanistan
raises the risk that reconstruction funds will be misused or wasted, reduces popular support for the Afghan
government, hampers economic growth and governmental performance, and reduces international support for
the entire reconstruction effort. State, USAID, and the Department of Defense, along with the United Nations
and other international organizations, have cited corruption as a severe roadblock to building a stable
Afghanistan.
The United States has made strengthening the Afghan government’s capacity to combat corruption a priority.
State, the designated lead on the effort to combat corruption in Afghanistan’s non-security sectors, has
delegated the responsibility to the U.S. Embassy in Kabul to establish and implement anti-corruption programs
in Afghanistan. 6 The U.S. anti-corruption effort involves multiple agencies across various sections of the U.S.
Embassy Kabul, including USAID, State, and the Departments of Justice, the Treasury, and Homeland Security.
In 2010, we reported that the U.S. Embassy in Afghanistan had drafted a comprehensive anti-corruption
strategy, and several U.S. agencies had assistance programs to build the capacity of the Afghan government to
combat corruption. 7 At that time, the Secretary of State had not approved the comprehensive strategy to
provide guidance to those agencies and, accordingly, we found that the majority of U.S. assistance to
Afghanistan had been provided without the benefit of an approved strategy. Our work also found that although
the Afghan government had established a number of oversight institutions focused on reducing corruption,
these institutions lacked independence, audit authority, and capacity. Further, U.S. anti-corruption efforts
provided relatively little assistance to some key Afghan oversight institutions. In 2010, to improve and direct
U.S. anti-corruption efforts in Afghanistan and to help strengthen the capacity of Afghan government
institutions to combat corruption and protect U.S. and other donor funds from waste, fraud, and abuse, we
recommended that the U.S. Secretary of State approve and implement the draft comprehensive U.S.
anti-corruption strategy for reconstruction efforts in Afghanistan.


U.S. Embassy Kabul’s Anti-Corruption Efforts are Not Guided by a Comprehensive Strategy
to Combat Corruption
The Secretary of State never provided final approval for the draft anti-corruption strategy and, according to
agency officials, the draft strategy document is no longer current or applicable and no successor document
exists. In 2010, the U.S. Embassy Kabul prepared and used an anti-corruption implementation plan in line with
the draft anti-corruption strategy discussed above. This implementation plan reflected the elevated resources
available, accounting for the 2010-2011 troop and civilian increases. 8 U.S. Embassy Kabul reportedly used the
2010 draft strategy and plan for some time; however, both documents are no longer in effect. Due to
intervening events, including the death of the ambassador serving as the Special Representative for
Afghanistan and Pakistan, the strategy never received final approval from the Secretary of State, according to
State and U.S. Embassy Kabul officials. Further, due to the withdrawal of combat troops by the end of 2014


5   Transparency International, Corruption Perceptions Index, 2012, p. 4.
6 Although the focus of this report is the anti-corruption effort led by State, the Department of Defense has also taken steps
to combat corruption through its effort to train and professionalize the Afghan National Security Force (ANSF). This review
does not include DoD programs with the ANSF.
7   See SIGAR Audit-10-15.
8The anti-corruption implementation plan is a classified document and details on the contents of that plan remain
classified.




SIGAR SP-13-9 Anti-Corruption / Strategy and Planning                                                                 Page 3
and the transition of security responsibilities entirely to the Afghan government, embassy officials and senior
leadership told us in March 2013 that they are no longer following the 2010 strategy or implementation plan,
specifically noting that the plan used a resource-intensive approach that is not sustainable given the current
focus on transition and rightsizing of the U.S. mission in Afghanistan. To date, there is no final strategy, plan, or
guidance that comprehensively defines goals, objectives, and outcomes for the U.S. government’s efforts to
combat corruption in Afghanistan.

The Government Performance and Results Act of 1993 and the GPRA Modernization Act of 2010 identify the
importance of accountability by executive agencies in achieving their program results. The acts establish
guidelines and the sharing of best practices that require agencies to develop long-term strategic plans that (1)
identify specific program goals and objectives, (2) align necessary resources to achieve those goals and
objectives, and (3) describe the performance measures that will be used to assess program outcomes. 9
Embassy officials identified the Tokyo Mutual Accountability Framework and U.S. Civil-Military Strategic
Framework for Afghanistan as the key documents guiding their ongoing efforts for anti-corruption programs in
Afghanistan. However, as framework documents they do not contain specific anti-corruption goals and
objectives, align necessary resources, or identify performance metrics in a comprehensive way that would
enable an evaluation of progress in achieving measurable results. Specifically:

     •   The purpose of the Tokyo Mutual Accountability Framework is to reaffirm the partnership in Afghan
         economic growth and development between Afghanistan and the international donor community. 10
         The Tokyo Mutual Accountability Framework was not intended to be a strategic plan for reducing
         corruption. The Tokyo Mutual Accountability Framework addresses corruption as a component to be
         addressed within governance, rule of law, and human rights. The Tokyo Mutual Accountability
         Framework alone does not delineate specific anti-corruption goals or objectives against which the U.S.
         government can measure its progress.

     •   The U.S. Civil-Military Strategic framework for Afghanistan, updated in August 2013, articulates the
         strategic vision of the U.S. government to achieve its national goals in Afghanistan and facilitates U.S.
         civilian and military cooperation and partnership in Afghanistan. 11 This document outlines U.S.
         operational involvement in Afghanistan under three pillars—governance, rule of law, and social and
         economic development—that rest on a foundation of security. 12 The U.S. Civil Military Framework does
         not offer a set of strategic goals focusing specifically on the fight against corruption, but includes



9 Government Performance and Results Act of 1993, Pub. L. No. 103-62, § 3, 107 Stat. 285, 286 (1993); GPRA

Modernization Act of 2010, Pub. L. 111-352, § 2, 124 Stat. 3866, 3866-67 (2011).
10See Tokyo Mutual Accountability Framework, July 8, 2012. The Tokyo Mutual Accountability Framework established an
approach based on the mutual commitments of the Afghan government and the international donor community to help
Afghanistan achieve specific development and governance goals. It groups these goals into five areas: (1) representational
democracy and equitable elections; (2) governance, rule of law, and human rights; (3) integrity of public finance and
commercial banking; (4) government revenues, budget execution, and sub-national governance; and (5) inclusive and
sustained growth.
11 See U.S. Civil-Military Strategic Framework for Afghanistan (Kabul: August 2013, Revision 2) p. 1. The two U.S. strategic

goals in Afghanistan as defined by the President in June of 2011 are (1) disrupt, dismantle, and eventually defeat al-Qaeda
and its affiliates and prevent their return to Afghanistan, and (2) build a partnership with the Afghan people that ensure
that the United States will be able to continue to target terrorists and support a sovereign Afghan government. See also
President Barack Obama, Remarks by the President on the Way Forward in Afghanistan (June 22, 2011).
12 Each pillar is broken down into a series of key priorities in order to better measure success on the Civil-Military
framework’s strategic goals.




SIGAR SP-13-9 Anti-Corruption / Strategy and Planning                                                                    Page 4
         anti-corruption as a part of its governance and rule of law pillars. Under the governance pillar, the
         Framework directs U.S. government actors to continue to support programs that identify and reduce
         corruption while encouraging a more open and transparent Afghan government. Under the rule of law
         pillar, the Framework pledges to help build the technical capacity of key justice sector institutions and
         support efforts to improve border regimes and customs collection.

The 2010 draft U.S. anti-corruption strategy offered an approach governed by operational principles divided
year by year, with each period having specific anti-corruption pillars, implementation approaches, and
benchmarks and measures of effectiveness. The related 2010 implementation plan also identified ongoing
U.S. and international initiatives and gaps where more programming was necessary. Other U.S. strategic
documents have included more specific guidance. For example, the 2011 U.S. Government Integrated Civilian-
Military Campaign Plan for Support to Afghanistan, replaced by the Civil-Military Framework, identified a series
of anti-corruption sub-objectives and related metrics, each placed on a 12- to 18-month timeline. 13

Embassy officials told us that, in lieu of an anti-corruption strategy, the U.S. government’s anti-corruption
efforts in Afghanistan are currently overseen by the Deputy Ambassador and coordinated through three
working groups: (1) Anti-Corruption Capacity Building, (2) Kabul Bank, and (3) Borders. These groups focus on
three broad goals of building Afghan government institutional capacity, improving financial regulation and
public financial management, and enhancing revenue generation, respectively. Officials stated that the
purpose of the working group model is to promote coordination and communication, and draw on all of the
assets available at the U.S. Embassy Kabul.

In addition, officials at the U.S. Embassy Kabul told us that they are in the process of developing a new Rule of
Law strategy that will encompass a large portion of their anti-corruption efforts. This effort is currently being
coordinated through the U.S. Embassy Kabul’s interagency process. According to the Coordinating Director for
Development and Economic Affairs, the new Rule of Law strategy will address four areas: (1) the Afghan justice
sector, with a focus on law enforcement institutions, (2) the executive branch for improving Afghanistan’s
regulatory framework and reducing corruption, (3) the legislative branch charged with overseeing the executive
branch and drafting new laws, and (4) civil society organizations and the media as independent watchdogs. We
were informed by U.S. Embassy Kabul officials that the new strategy will have specific benchmarks and
milestones, and will include a section on combating corruption. Embassy officials indicated that they did not
have any further plans to draft a strategy addressing anti-corruption efforts beyond what will be addressed in
the new Rule of Law strategy. As of July 2013, agency officials told us that the Rule of Law Strategy remains in
draft form and is undergoing interagency review at the U.S. Embassy Kabul.


U.S. Embassy Kabul Does Not Have a Mechanism for Tracking Long-Term Progress on
Anti-Corruption Efforts or Achievement of Anti-Corruption Goals and Objectives
Currently, the U.S. Embassy Kabul does not have a method for tracking progress made over time on the
anti-corruption engagement issues listed in the working group documents, determining whether these projects
and programs have been successful, or identifying how these projects and programs are meeting the broad
goals that these groups are intended to focus on (building Afghan government institutional capacity, improving
financial regulation and public financial management, and enhancing revenue generation). Embassy officials




13United States Government Integrated Civilian-Military Campaign Plan for Support to Afghanistan (February 2011,
Revision 1), pp. 16-17.




SIGAR SP-13-9 Anti-Corruption / Strategy and Planning                                                              Page 5
referred to the working group documents as their method for tracking progress made in the anti-corruption
effort.
The three working groups organize their projects and programs into identified categories of issues and report
on the headway made in each category. However, the working groups do not categorize the issues by
objectives that are tied to the respective goals of the group and would allow the U.S. Embassy Kabul or the
State Department to track progress in meeting the broad goal of each group. Despite this, our analysis of the
working group documents found that the engagement issues each working group is undertaking do lend
themselves to being grouped by larger objectives under the goals of each of the working groups. Table 1 shows
the goal of each working group as defined by the U.S. Embassy Kabul’s working group documents and the
objectives we identified from our analysis of these documents.
Figure 1 - Table 1. U.S. Embassy Kabul Anti-Corruption Working Group Goals and Objectives

             Working Group                                Working Group Goal                 Objectives Identified by SIGAR

 Anti-Corruption Capacity Building                Build capacity of Afghan law              1. Improve the Supreme Court’s Anti-
                                                  enforcement and judicial institutions     Corruption Tribunal
                                                                                            2. Strengthen the Attorney General’s
                                                                                            Office
                                                                                            3. Improve government transparency
 Kabul Bank                                       Improve financial regulation and          1. Address direct consequences of
                                                  public financial management               the Kabul Bank collapse
                                                                                            2. Establish a framework for a strong
                                                                                            financial sector
                                                                                            3. Ensure integrity of public finance
                                                                                            and the banking system
 Borders                                          Enhance revenue generation                1. Increase borders-related law
                                                                                            enforcement coordination
                                                                                            2. Improve borders-related law
                                                                                            enforcement capacity
                                                                                            3. Maximize revenue generation for
                                                                                            the government
Source: SIGAR analysis of U.S. Embassy Kabul’s anti-corruption working groups documents.

Note: SIGAR has initiated several audits of specific agency programs that fall under these working groups. These include a
review of (1) U.S. programs and funds dedicated to training Afghan justice sector personnel with a focus on State’s Justice
Sector Support Program and Justice Training Transition Program, (2) U.S. efforts to develop and strengthen the capacity of
Afghanistan’s Central Bank, Da Afghanistan Bank, and (3) USAID and Department of Homeland efforts to develop and
strengthen Afghanistan’s capacity to assess and collect customs revenue.

In addition, there is no connection between the categories of issues that the working groups have identified
and any set of measurable benchmarks that would specifically guide working group efforts. Although embassy
officials referred to the Tokyo Mutual Accountability Framework and the Civil-Military framework as guidance
for the anti-corruption effort, these frameworks lack the specific anti-corruption benchmarks against which the
embassy can assess its progress. Such benchmarks did exist in the draft 2010 anti-corruption strategy and
implementation plan. In addition, neither framework is intended to provide a mechanism to identify related
resource needs and measure success or setbacks in the U.S. government’s anti-corruption program. Embassy
officials, including the Deputy Ambassador, confirmed that there is no mechanism currently used to track
overall progress.
Further, the working group documents do not identify any future actions, articulating only those currently
underway or already completed. Only the Deputy Ambassador to Afghanistan can approve the addition of new
engagement issues, a process that has in some cases caused a disconnect between information collected by

SIGAR SP-13-9 Anti-Corruption / Strategy and Planning                                                                      Page 6
individuals in the field and the information that is shaping the progress reports in the working group
documents.
The U.S. Embassy Kabul is implementing a variety of ongoing activities and agency programs to address
corruption throughout Afghanistan. A sample of ongoing anti-corruption activities reported by the U.S. Embassy
Kabul working groups include: training for the Afghan Supreme Court’s Anti-Corruption Tribunal, efforts to
institute a nationwide case management system for the tracking of criminal cases, streamlining construction
permit processes, and increasing intelligence sharing among units in Afghan ministries to maximize unity of
effort in addressing corruption and smuggling. Agency officials at the U.S. Embassy Kabul indicated that they
intend to implement tools to track and measure progress on all of the programs encompassed within the
working group documents. These same officials told us they often report on the progress of their projects
through their internal processes, but we learned that they do not consistently share these reports with the
applicable working group for inclusion in the group’s documents. The U.S. Embassy Kabul also reports on the
anti-corruption efforts through its cables to State headquarters. However, without clearly articulated objectives
and benchmarks, the U.S. Embassy Kabul currently has no way to track progress over time or identify where
some embassy programs and projects are succeeding and others are failing.


Conclusion
Since the issuance of our August 2010 audit report, the U.S. government has continued to implement
programs, projects, and initiatives to combat the ongoing problem of corruption in Afghanistan without the
benefit of an approved comprehensive U.S. anti-corruption strategy. The U.S. Embassy Kabul has made an
effort to coordinate the anti-corruption programs and activities of multiple agencies around three main goals to
be pursued by three interagency working groups. However, the lack of specific strategic guidance for its anti-
corruption efforts—including a clear linkage to strategic goals, supporting objectives, and benchmarks—
hampers U.S. Embassy Kabul’s ability to measure progress and track what it has accomplished. The efforts are
also hampered by the lack of an implementation plan that identifies resource needs and a timeline for meeting
specific benchmarks. We continue to believe that the United States would benefit from an anti-corruption
strategy that defines a more coordinated approach to building the capacity of Afghan institutions to fight the
pervasive corruption across the country, particularly as the U.S. government plans to provide more of its future
reconstruction funds in the form of direct assistance to the Afghan government. Further, with the ongoing
drawdown of U.S. military forces and the transition at the embassy from a civilian uplift posture to a more
traditional level of personnel and other resources, a strategic allocation of U.S. anti-corruption priorities,
efforts, and resources will be even more important in providing accountability and oversight for U.S. funds.
Without a comprehensive strategy and a supporting implementation plan, it is difficult to adequately account
for the U.S. funds and resources needed to implement these anti-corruption programs and activities or
demonstrate measurable progress U.S. agencies have made in reducing corruption in Afghanistan.


Recommendations
To better define the U.S. government’s anti-corruption goals and the desired outcomes of its anti-corruption
effort, we recommend that the Secretary of State, in consultation with all other appropriate departments:
    1. Develop and approve a comprehensive, coordinated strategy for U.S. anti-corruption efforts in
       Afghanistan, including goals, objectives, and measureable outcomes, and
    2. Develop an updated operational plan for the implementation of the identified anti-corruption goals and
       objectives that identifies benchmarks and timelines for the accomplishment of these goals and
       accounts for the needed funding and personnel resources.




SIGAR SP-13-9 Anti-Corruption / Strategy and Planning                                                      Page 7
Agency Comments and Our Response
We provided a draft of this report to the Department of State and U.S. Embassy Kabul for their review. The
Department provided comments, which are reproduced in enclosure I. State agreed with the importance of
establishing clear objectives and benchmarks in order to measure outcomes. State identified steps the U.S.
Embassy in Kabul is taking to provide senior-level focus and strategic direction and establish clear objectives
and benchmarks for its anti-corruption efforts. According to the Deputy Special Representative for Afghanistan
and Pakistan, the three anti-corruption working groups provide the targeted and flexible approach necessary to
work effectively in Afghanistan’s rapidly changing environment in a way that is more responsive than a single,
static strategy. In response to SIGAR’s findings, he indicated that the U.S. Embassy Kabul is in the process of
creating a new anti-corruption coordination group to provide senior-level focus and strategic direction for all of
the Embassy Kabul’s anti-corruption efforts. In addition, the anti-corruption working groups are developing a
targeted set of anti-corruption objectives, benchmarks, and plans against which to measure the U.S. effort and
direct and assess resources. Once those documents are finalized, State stated that the U.S. Embassy Kabul
will provide those documents to SIGAR.
____________________________________________________________
This product was completed under SIGAR’s Office of Special Projects, the SIGAR response team created to
examine emerging issues in prompt, actionable reports to federal agencies and the Congress. The work was
conducted under the authority of Public Law No. 110-181, as amended; the Inspector General Act of 1978;
and the Inspector General Reform Act of 2008. Major contributors to this report were Monica Brym, William
Gaertner, and Gabriele Tonsil. Technical support was provided by Kim Corthell, and Larry Dare.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction




SIGAR SP-13-9 Anti-Corruption / Strategy and Planning                                                      Page 8
ENCLOSURE I: COMMENTS FROM THE U.S. DEPARTMENT OF STATE



                                                                United States Department of State
                                                                Washington, D. C. 20520
                                                                www.state.gov

                                                                       September 5, 2013

             Elizabeth A. Field
             Assistant Inspector General for Audits and Investigations
             Special Inspector General for Afghanistan Reconstruction (SIGAR)
             1550 Crystal Drive, Suite 900
             Arlington, VA 22202

             Dear Ms. Field:

                   Thank you for the opportunity to provide the Department of State's
             comments on SIGAR Draft Special Project Report SP-06: U.S. Anti-Corruption
             Efforts: A Strategic Plan and Mechanisms to Track Progress are Needed in
             Fighting Corruption in Afghanistan."

                     To address the widespread and complicated nature of corruption in
             Afghanistan, our anti-corruption efforts are crosscutting and woven into many
             facets of U.S. government programming. Embassy Kabul has coordinated U.S .
             activities to reduce corruption and improve rule of law through three working
             groups, each of which focuses on a core anti-corruption goal: anti-corruption
             capacity building, Kabul Bank/financial sector strengthening, and reducing
             corruption at border crossings. These groups, which draw from various sections
             within the Embassy, direct the programs that provide the targeted and flexible
             approach necessary to work effectively in Afghanistan's rapidly changing
             environment in a way that is more responsive than a single, static strategy would
             be. Embassy Kabul is also in the process of refining this structure by creating a
             new Anti-Corruption Coordination Group, to be chaired by Coordinating Director
             Dr. Ken Yamashita, that will provide senior-level focus and strategic direction for
             all of the Embassy's anti-corruption efforts.

                    We agree with the importance of establishing clear objectives and
             benchmarks in order to measure outcomes. To this end, and in response to SIGAR
             feedback received during the examinations for this special project report, the
             Embassy's working groups are developing a targeted set of anti-corruption
             objectives, benchmarks, and plans against which our U.S. efforts and resources
             will be directed and assessed. Once finalized, the Embassy will provide these
             documents to SIGAR.




SIGAR SP-13-9 Anti-Corruption / Strategy and Planning                                               Page 9
                  Thank you again for the opportunity to comment, and we welcome any
            questions.


                                                        Sincerely,


                                                        t~
                                                        Deputy Special Representative
                                                        for Afghanistan and Pakistan




SIGAR SP-13-9 Anti-Corruption / Strategy and Planning                                   Page 10
                             The mission of the Special Inspector General for Afghanistan
         SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                             reconstruction of Afghanistan by conducting independent and
                             objective audits, inspections, and investigations on the use of
                             taxpayer dollars and related funds. SIGAR works to provide accurate
                             and balanced information, evaluations, analysis, and
                             recommendations to help the U.S. Congress, U.S. agencies, and
                             other decision-makers to make informed oversight, policy, and
                             funding decisions to:
                                      •   improve effectiveness of the overall reconstruction
                                          strategy and its component programs;
                                      •   improve management and accountability over funds
                                          administered by U.S. and Afghan agencies and their
                                          contractors;
                                      •   improve contracting and contract management
                                          processes;
                                      •   prevent fraud, waste, and abuse; and
                                      •   advance U.S. interests in reconstructing Afghanistan.



Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                             site (www.sigar.mil). SIGAR posts all publically released reports,
 Reports and Testimonies     testimonies, and correspondence on its Web site.




                             To help prevent fraud, waste, and abuse by reporting allegations of
 To Report Fraud, Waste,     fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
and Abuse in Afghanistan     hotline:

Reconstruction Programs               •   Web: www.sigar.mil/fraud
                                      •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                      •   Phone Afghanistan: +93 (0) 700-10-7300
                                      •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                      •   Phone International: +1-866-329-8893
                                      •   Phone DSN International: 312-664-0378
                                      •   U.S. fax: +1-703-601-4065




                             Public Affairs Officer
            Public Affairs            •   Phone: 703-545-5974
                                      •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                      •   Mail: SIGAR Public Affairs
                                          2530 Crystal Drive
                                          Arlington, VA 22202
